<html>
<title> - DETECTING SMUGGLED NUCLEAR WEAPONS</title>
<body><pre>[Senate Hearing 109-761]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-761
 
                   DETECTING SMUGGLED NUCLEAR WEAPONS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TERRORISM, TECHNOLOGY
                         AND HOMELAND SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 2006

                               __________

                          Serial No. J-109-102

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
32-200                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                       JON KYL, Arizona, Chairman
ORRIN G. HATCH, Utah                 DIANNE FEINSTEIN, California
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JOHN CORNYN, Texas                   JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
LINDSEY O. GRAHAM, South Carolina    RICHARD J. DURBIN, Illinois
                Stephen Higgins, Majority Chief Counsel
                 Steven Cash, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     4
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     1

                               WITNESSES

Aoki, Steven, Deputy Under Secretary for Counterterrorism, 
  Department of Energy, Washington, D.C..........................     7
Ikle, Fred C., Distinguished Scholar, Center for Strategic and 
  International Studies, Washington, D.C.........................    12
Levi, Michael A., Fellow for Science and Technology, Council on 
  Foreign Relations, New York, New York..........................    10
Nanos, George Peter, Associate Director, Research and 
  Development, Defense Threat Reduction Agency, Fort Belvoir, 
  Virginia.......................................................     9
Oxford, Vayl S., Director, Domestic Nuclear Detection Office, 
  Department of Homeland Security, Washington, D.C...............     5

                         QUESTIONS AND ANSWERS

Responses of Steven Aoki to questions submitted by Senator Kyl...    26
Responses of Vayl S. Oxford to questions submitted by Senator Kyl    43

                       SUBMISSIONS FOR THE RECORD

Aoki, Steven, Deputy Under Secretary for Counterterrorism, U.S. 
  Department of Energy, Washington, D.C., prepared statement.....    68
Levi, Michael A., Fellow for Science and Technology, Council on 
  Foreign Relations, New York, New York, prepared statement......    72
Nanos, George Peter, Associate Director, Research and 
  Development, Defense Threat Reduction Agency, Fort Belvoir, 
  Virginia, prepared statement...................................    79
Oxford, Vayl S., Director, Domestic Nuclear Detection Office, 
  U.S. Department of Homeland Security, Washington, D.C., 
  prepared statement.............................................    86


                   DETECTING SMUGGLED NUCLEAR WEAPONS

                              ----------                              


                        THURSDAY, JULY 27, 2006

                              United States Senate,
        Subcommittee on Terrorism, Technology and Homeland 
                      Security, Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:15 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jon Kyl, 
Chairman of the Subcommittee, presiding.
    Present: Senators Kyl and Feinstein.

  OPENING STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE 
                        STATE OF ARIZONA

    Chairman Kyl. All right. This meeting of the Judiciary 
Committee Terrorism, Technology and Homeland Security 
Subcommittee will come to order. I want to welcome all of you. 
Let me begin with my opening statement and then call on our 
Ranking Member, Senator Feinstein.
    The 9/11 Commission said that the greatest danger of 
another catastrophic attack in the United States will 
materialize if the world's most dangerous terrorists acquire 
the world's most dangerous weapons. Our report shows that al 
Qaeda has tried to acquire or make weapons of mass destruction 
for at least 10 years. There is no doubt the United States 
would be a prime target.
    In recent years, this Subcommittee has looked at threats 
posed by chemical, biological, and electromagnetic pulse 
attacks on the United States. Today, we will examine the most 
dire threat that we face: nuclear terrorism. We will be hearing 
from officials responsible for preventing the smuggling of 
nuclear weapons into this country, and we want to hear about 
the work that they are doing, the challenges they are facing, 
and what we in Congress can do to help ensure that the American 
people are protected from nuclear terrorism.
    The 9/11 Commission's findings echo the argument of a 
review conducted before 9/11 by Howard Baker and Lloyd Cutler, 
which found, and I am quoting, that the ``most urgent unmet 
national security threat to the United States today is the 
danger that weapons of mass destruction or weapons- usable 
material in Russia could be stolen, sold to terrorists or 
hostile nation states, and used against American troops abroad 
or citizens at home.''
    To Russia, we should now add other potential nuclear 
sources, such as Pakistan, Iran, and North Korea. Terrorists 
would need no more than 9 pounds of plutonium or 35 pounds of 
highly enriched uranium to create a nuclear explosion. A 
trained nuclear engineer--and there are plenty of them looking 
for work worldwide--could use this small chunk of material to 
create a nuclear device that would fit into a van or small 
watercraft.
    There have been plenty of efforts by terrorists and 
smugglers to acquire these nuclear materials. According to the 
IAEA, between 1993 and 2004, there were 662 confirmed cases of 
smuggling of nuclear and radiological materials, and those were 
just the instances that we know about. of those confirmed 
cases, 21 involved materials that could be used to produce a 
nuclear weapon, and over 400 involved materials that could be 
used to make a dirty bomb. It is clear that this threat is very 
real and deserves our utmost attention.
    Increased awareness of this threat spurred the President to 
create the Domestic Nuclear Detection Office within the 
Department of Homeland Security in April of 2005. DNDO was 
intended to be a single, accountable organization with 
dedicated responsibilities to develop the global nuclear 
detection architecture and to acquire and support the 
deployment of the domestic system to detect and report attempts 
to import or transport a nuclear device or fissile or 
radiological material intended for illicit use.
    In addition to DNDO, other governmental agencies, such as 
the Defense Threat Reduction Agency and the National Nuclear 
Security Administration, play a role in preventing nuclear 
terrorism, We will hear about these organizations today and how 
they work with DNDO to keep America safe.
    In its recent markup, the Appropriations Subcommittee on 
Homeland Security cut DNDO's research and development budget by 
30 percent. We want to look today at the impact of that cut on 
the ability of the United States to develop technologies for 
detecting smuggled nuclear weapons. In addition, I look forward 
to discussing nuclear detection programs that may come before 
the Senate in the near future.
    And, finally, I would like to consider the proposition that 
the United States is approaching the issue of nuclear detection 
at a far too leisurely pace. Some have advocated the Manhattan-
type project as an approach to nuclear detection, modeled after 
the intensive all-out efforts by U.S. scientists to build the 
first atomic bomb. And I will be asking our witnesses today to 
address this and to give an idea of what additional funding 
could do for their offices and nuclear terrorism prevention in 
general.
    The Committee will hear from five experts.
    Mr. Vayl Oxford was appointed Director of the Domestic 
Nuclear Detection Office in September of 2005, reporting to the 
Secretary of the Department of Homeland Security, with 
responsibility for establishing the jointly staffed office and 
for directing all activities associated with the organization. 
Before this appointment, Mr. Oxford served as the transitional 
team leader and Acting Director of DNDO, and previously served 
as the Director for Counterproliferation at the National 
Security Council.
    Dr. Peter Nanos is the Associate Director of Research and 
Development, Defense Threat Reduction Agency, DTRA. Before 
going to DTRA, Dr. Nanos was the Director of Los Alamos 
National Laboratory in New Mexico, having served since 2003. He 
was named the Interim Director of Los Alamos in January of 
2003, is a retired Vice Admiral of the United States Navy, and 
a 1967 graduate of the Naval Academy.
    Dr. Steve Aoki is the Deputy Under Secretary of Energy for 
Counterterrorism. Before assuming this, he was Senior Adviser 
for International Affairs to the Administrator of the 
Department of Energy's National Nuclear Security 
Administration. Before joining DOE, he served at the U.S. 
Department of State as the Director of the Office of 
Proliferation Threat Reduction. From 1993 to 1996, he was on 
the staff of the National Security Council with responsibility 
for nonproliferation and export control policy. He also was a 
program manager at the Lawrence Livermore National Laboratory, 
which is part of the National Nuclear Security Administration.
    Dr. Michael Levi is a Fellow for Science and Technology at 
the Council on Foreign Relations. He has also been a Fellow at 
the Brookings Institution and the Federation of American 
Scientists. Dr. Levi holds a Ph.D. in war studies from the 
University of London, Kings College, and an M.A. in physics 
from Princeton University.
    And, finally, we are honored to have with us today Dr. Fred 
Ikle. Dr. Ikle is a Distinguished Scholar at the Center for 
Strategic and International Studies and a member of the Defense 
Policy Board. Before joining CSIS in 1988, Dr. Ikle served as 
Under Secretary of Defense for Policy during the first and 
second Reagan administrations and Director of the U.S. Arms 
Control and Disarmament Agency during the Nixon and Ford 
administrations. From 1999 to 2000, he served as Commissioner 
on the National Commission on Terrorism.
    We have a distinguished panel of witnesses before us today. 
I am interested in examining with them how to make the Nation 
safer by developing and deploying nuclear detection 
technologies. In today's budget-constrained environment, we 
simply cannot spend money on every technology that might keep 
us safe. But if a nuclear 9/11 is, in fact, the greatest 
existential danger facing this Nation, then we must ensure that 
we are acting in a manner proportionate to the threat. That 
includes providing adequate funding, adequate authority, and 
adequate attention to the relevant agencies of our Government.
    Today the Subcommittee will consider whether enough is 
being spent on nuclear detection and specifically what the 
likely impact will be of the appropriations cuts on DNDO's 
budget. In addition, I want to examine whether the money being 
spent is allocated correctly between organizations, missions, 
and technologies. And, finally, the Subcommittee is interested 
to know whether there is anything else the Congress can do to 
facilitate the work of the organizations represented here, and 
I certainly look forward to all of your statements and the 
lively discussion sure to follow.
    In conclusion, let me also thank our Ranking Member, 
Senator Dianne Feinstein, who has been a real partner in this 
effort to deal with technology and terrorism from the very 
commencement of our Committee work a decade ago. I think 
without the close working relationship that our two staffs have 
and that Senator Feinstein and I have, we could not have made 
the progress that we have on so many different fronts. She is 
going to have to go to another Committee meeting in just a few 
minutes, and so I am going to give her the remainder of the 
time here and comment on anything that you would like, Senator 
Feinstein. But any questions that you would like to submit to 
the witnesses after you are gone, of course, will be submitted 
for the record, and we would like to get the responses from all 
of the witnesses to those questions.
    Thank you.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. Thank 
you for your leadership. It is hard to believe we have both 
been either Chairman or Ranking of this Subcommittee now for 10 
years. I guess we both grow older in the process--hopefully 
wiser, too.
    I would like particularly to recognize Pete Nanos. I would 
like to thank you for your work at Los Alamos on behalf of the 
University of California. It is much appreciated, and I hope 
you know that. I also welcome the other witnesses today.
    As Senator Kyl inferred, Senator Lisa Murkowski is doing me 
really a great favor by hearing a bill which benefits the water 
situation in California, which in turn benefits the State of 
Arizona because it enables us to wean off of Colorado River 
water. So I figure I should, at the very least, show up for the 
hearing, and I will.
    Let me begin by saying many lessons have been learned in 
combating the war on terror, and in turn, our Government has 
used a multi-layered strategy to protect our country. Central 
to the effort is the Government's focus on detecting and 
intercepting nuclear materials and technologies. And the goal 
is that neither falls into the hands of terrorists or those who 
might sell these weapons to terrorists.
    Now, to many, such a threat seems remote, but, 
unfortunately, it is real. I was very surprised by this, but 
according to the International Atomic Energy Agency, from 1993 
to 2004--that is 11 years--there were 662 confirmed cases of 
smuggling of nuclear and radiological materials worldwide--662 
confirmed cases in 11 years. While all of these cases arose in 
and out of other countries, the United States is certainly not 
immune.
    A recent GAO undercover operation proved that nuclear 
materials could be smuggled into the United States. GAO 
actually shipped here to Washington enough nuclear materials to 
build two dirty bombs through our Northern border and again 
through our Southern border.
    I am pleased that the fault was not with the detection 
devices, and there are efforts under way to ensure that the 
mistakes that were made are not repeated. However, clearly, 
there is more that must be done, and, clearly, we still have 
problems on both our Northern and Southern border.
    We have got to put in place an integrated system that 
provides our citizens with maximum protection against nuclear 
smuggling and do it in a way that is both efficient and cost 
effective. So I hope that our witnesses today will give us an 
update on where we are, describe options going forward, and 
suggest tangible solutions.
    Let me mention some steps that need to be taken. Today, 
only 5 percent of containers at our seaports are screened. We 
all know that. GAO recently reported that DHS' deployment of 
monitors at seaports and Southwest border crossings is 2 years 
behind schedule. GAO reported that DHS may be facing a cost 
overrun of $340 million and that overall deployment may not be 
completed before 2014.
    The new generation of radiation detectors are based on 
prototypes that GAO said were no more effective than the 
portals now in use and clearly not worth the price tag of 
almost 10 times the cost of the current detectors. So I hope 
that is something we will look into.
    Even after DHS completes its efforts, it appears we will 
still not have a device that can detect a nuclear bomb encased 
in lead shielding or uranium placed in a lead pipe. And, 
finally, it is unclear why DHS is not prioritizing development 
of the integrated cargo inspection scanning technology that has 
shown such promise.
    Now, I believe that our security situation has improved 
since 9/11, and I would not want to give a contrary view. And 
the efforts are, of course, greatly appreciated. But the bottom 
line here is better is simply not enough.
    I would like to thank Senator Kyl for holding this hearing. 
I am delighted to work with him. And I think it is really very 
important that we tackle some of these specific issues and get 
some cost-effective answers.
    I am awful sorry I cannot be here, but I do have a series 
of questions, and I will give them to you, Senator. If you 
would be willing to submit them, I would appreciate it very 
much.
    Chairman Kyl. Thank you very much. They will be submitted, 
and if there is nothing further, then I think the best thing to 
do is to start on my left and just start with Mr. Oxford and 
have each of the panelists in turn go ahead and make your 
statements, and then we will begin the questioning. Thank you, 
Senator Feinstein.
    So, Vayl Oxford, the floor is yours.

    STATEMENT OF VAYL S. OXFORD, DIRECTOR, DOMESTIC NUCLEAR 
DETECTION OFFICE, DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, 
                              D.C.

    Mr. Oxford. Thank you, Mr. Chairman. It is a pleasure to 
come before you today along with my partners from the 
Department of Energy and Department of Defense to discuss how 
DNDO is responding to the threat of nuclear and radiological 
terrorism.
    Today, I would like to briefly discuss the formation of 
DNDO and what its role is in protecting against this threat, 
some of our accomplishments over the last year since our 
inception, and some of our program priorities for the upcoming 
year. Then I will be glad to address some of the issues that 
Senator Feinstein brought up specifically.
    I would like to talk specifically about how we are 
enhancing our detection capabilities through next-generation 
capabilities and how through transformational research will 
help to overcome some of our longer-term challenges.
    Let me highlight some of the accomplishments we have made 
in the last year since our accomplishment and what our mission 
is.
    First of all, as you noted, we were set up as a joint 
office in April 2005 to not only integrate DHS' efforts in 
nuclear and radiological threat response, but also to work as a 
singular authority with our partners to coordinate efforts 
across the U.S. Government to do this. We were assigned 
specific responsibilities, as you noted, to develop the global 
detection architecture that sets in place the global strategy 
for dealing with this threat; to develop, acquire, and support 
the deployment of the actual domestic component of that 
architecture; to direct the nuclear and radiological research 
and development program within DHS; and to serve as a focal 
point to help coordinate the activities across the executive 
branch.
    In the year since its founding, the DNDO has taken major 
steps in accomplishing this mission. Let me cite some of our 
accomplishments.
    First of all, we have completed the first ever global 
detection architecture that identified key vulnerabilities and 
priority initiatives across the Federal, State, and local 
arena. On July 14th of this year, we awarded three contracts 
with an estimated value of $1.15 billion for the next-
generation passive radiation detection systems. The ASP 
program, the Advanced Spectroscopic Portal Program, will enter 
immediately into operational testing as well as by January into 
secondary screening operations with Customs and Border 
Protection. We expect full production to begin in 2007. These 
will be an integral part of our land border crossing and 
seaport architecture within the U.S.
    We have completed two high-fidelity test and evaluation 
campaigns at our Nevada test site to fully characterize systems 
performance before we do go to deployment, and we have also 
completed a test series on the handheld, backpack, and mobile 
detection systems. As we speak, we are conducting a test and 
evaluation campaign to look at radiation detection pagers that 
our law enforcement and Federal officials routinely use in the 
field to make sure we understand their full performance.
    We have also begun the development of next-generation 
radiography systems to deliver imagine systems that will allow 
us to detect the shielding associated with the threat that 
Senator Feinstein mentioned.
    Finally, we are very close to awarding contracts for the 
next-generation improved handheld and backpack systems to deal 
with other avenues of our architecture.
    We are also taking steps to expand our detection 
capabilities into aviation and maritime domains and within the 
domestic interior. Deployments of radiation detection equipment 
at U.S. airports will begin with a pilot deployment later this 
year at Dulles Airport, and ultimately we will have a total of 
30 airports equipped with radiation detection equipment. We 
have also committed to provide handheld and backpack radiation 
detection systems to the Coast Guard to allow them to 
successfully interdict radiation and radioactive materials 
offshore.
    We have launched a Southeastern Transportation Corridor 
Pilot program to deploy radiation detectors to truck weigh 
stations and other sites and, in addition, are providing the 
State and local authorities with the necessary training and 
reachback and operational protocols to effectively operate 
those.
    As Secretary Chertoff officially announced 2 weeks ago, we 
have also launched the Securing the Cities initiative that will 
enhance protection and response capabilities in and around the 
Nation's highest-risk urban areas. Using the New York area as 
our initial engagement, the DNDO and its regional partners will 
develop analytically based architectures, planning, equipment, 
and the necessary support infrastructure to protect those 
cities. We also plan to train over 1,500 operators at the State 
and local level in the use of this kind of equipment.
    There are remaining challenges, however, key, long-term 
challenges and vulnerabilities in our detection architecture 
that require a well-supported research and development program. 
These challenges include detecting threats from greater 
distances, in highly cluttered backgrounds, or in the presence 
of shielding and masking materials.
    Our exploratory research program is focused on innovative 
detection materials, advanced special nuclear material 
detection and verification, and algorithm development. We have 
received over 150 proposals in response to the solicitation to 
National and Federal Laboratories, resulting in almost $40 
million in research and development programs. A March 2006 
solicitation for private industry and academia resulted in over 
200 white papers, and we are currently evaluating 74 proposals 
for additional awards. In the upcoming year, we plan to begin 
our academic research program, which will fund colleges and 
universities to pursue innovative nuclear detection concepts 
and encourage them to train graduate students in the field of 
nuclear detection and related sciences.
    This concludes my prepared statement, and with the 
Committee's permission, I request my formal statement be 
submitted for the record and, Mr. Chairman, I will be glad to 
take any questions you have.
    Chairman Kyl. Without objection.
    [The prepared statement of Mr. Oxford appears as a 
submission for the record.]
    Chairman Kyl. Thank you.
    Dr. Aoki?

     STATEMENT OF STEVEN AOKI, DEPUTY UNDER SECRETARY FOR 
    COUNTERTERRORISM, DEPARTMENT OF ENERGY, WASHINGTON, D.C.

    Mr. Aoki. Mr. Chairman, thank you very much for the 
opportunity to appear today to discuss nuclear terrorism and, 
in particular, how to prevent terrorists from attacking the 
United States with nuclear or radiological weapons. As 
requested, I submitted a written statement for the record, so I 
will confine my oral remarks to a few points.
    First, this is a hard problem. Detecting a clandestinely 
transported nuclear weapon or materials to build one is 
inherently difficult. The radiation signatures emitted by 
fissile materials are relatively weak and can be further 
attenuated by shielding. Nonetheless, we believe this is a 
problem that can be successfully addressed, particularly for 
situations like land or seaports of entry where we potentially 
have enough access to the items being inspected to have a good 
chance of detecting a smuggled weapon. We are working closely 
with colleagues at DNDO, DOD, and other agencies to develop, 
test, and implement the most effective technology for this 
mission. We are also pursuing research and development to 
improve current systems and to explore fundamental advances in 
detection technology.
    The built-in challenges of the detection program, 
challenges brought to us by the laws of physics, make it 
vitally important that our approach to detection be embedded in 
a comprehensive, overall strategy that looks for multiple 
opportunities to prevent an attack. We need to block every step 
along the way, from terrorist acquisition of nuclear materials 
through delivery to the target, and to be ready to disarm a 
terrorist device should we uncover one before it is detonated.
    We also need to build the capability to identify the source 
of any illicitly obtained nuclear materials, both to track down 
weaknesses in security and to hold accountable those who 
contribute to an attack.
    Even if our individual measures and individual steps are 
not perfect, a coherent strategy can help deter attack by 
increasing its difficulty and reducing the likelihood that it 
can be carried to completion. Such a strategy necessarily cuts 
across traditional agency lines and responsibility, and we, 
therefore, welcome the role that DNDO is now playing to develop 
and articulate an overall strategic architecture that includes 
contributions from a number of Federal agencies, each acting 
with their own authorities and budgets.
    When you take a strategic look, this underscores the value 
of preventing terrorists from acquiring nuclear weapons or 
materials in the first place. Although it is outside the scope 
of today's hearing, I would note that DOE and other agencies 
have over the past decade made major investments to strengthen 
the security of nuclear storage sites in Russia and other 
countries, with this threat very much in mind. We have done 
even more to provide strengthened security at our own nuclear 
facilities in the United States.
    A related observation reflecting our experience in 
deploying nuclear detectors internationally and in conducting 
nuclear search operations is that attention must be given to 
the overall concept of operations for finding nuclear 
materials, not only the performance of individual portal 
monitors or the detectors.
    Our detection system needs to be able to identify the wide 
variety of natural and manmade sources of radiation that it may 
encounter in commerce or in ordinary shipments, but also to 
respond effectively and quickly if an alarm turns out to be 
real.
    As we increase the deployment of nuclear detection 
equipment by Federal, State, and local government authorities, 
we need to ensure that we also strengthen the ability to call 
in higher-level expertise, including national Render Safe 
Teams, when and if needed.
    Let me conclude with a brief summary of what DOE as an 
agency contributes to the nuclear detection mission.
    First, we operate the National Laboratory system that 
maintains expertise on nuclear weapons and related areas of 
science. Within the National Labs, DOE funds R&D specifically 
focused on the problems of nuclear detection. All of the 
agencies represented on this panel, and a number who are not 
here today, draw heavily from the National Labs' science base 
in carrying out their own missions.
    Secondly, as I mentioned, DOE's Defense Nuclear 
Nonproliferation Program carries out extensive cooperation with 
other countries aimed at improving security for nuclear 
materials and weapons. Through the Second Line of Defense and 
MegaPorts activities, DOE also provides assistance to install 
nuclear detection equipment at foreign border crossings and 
major seaports. These programs are important components of the 
overall detection architecture being developed by DNDO.
    Thirdly, DOE's Office of Emergency Operations provides 
technical support for nuclear search operations, for disarming 
and disposing of a terrorist nuclear device should one be 
discovered, for attribution and consequence management in the 
event of a terrorist of any kind involving nuclear or 
radioactive materials. This mission is carried out by the 
specialist teams involving DOD or FBI as well as DOE experts.
    This concludes the prepared remarks, and I look forward to 
your questions and discussion. Thank you.
    [The prepared statement of Mr. Aoki appears as a submission 
for the record.]
    Chairman Kyl. Thank you, Dr. Aoki.
    And now Dr. Pete Nanos.

 STATEMENT OF GEORGE PETER NANOS, ASSOCIATE DIRECTOR, RESEARCH 
AND DEVELOPMENT, DEFENSE THREAT REDUCTION AGENCY, FORT BELVOIR, 
                            VIRGINIA

    Mr. Nanos. Mr. Chairman, it is an honor to be here today to 
address the Defense Threat Reduction Agency's Radiation 
Detection program. I will excerpt and highlight a couple of 
issues from my prepared remarks.
    As the Associate Director for Research and Development at 
DTRA, I am responsible for making R&D investments in 
capabilities to reduce, eliminate, counter, and defeat the 
threat of weapons of mass destruction and mitigate their 
effects.
    Most importantly, the Defense Threat Reduction Agency is a 
combat support agency, which means that the warfighter in the 
field is our customer and primary focus. Since our 
establishment in 1998, we have been providing capabilities for 
the Department of Defense's nonproliferation, 
counterproliferation, and consequence management programs--the 
three pillars of the President's National Strategy to Combat 
WMD.
    As the President stated in March 2006 in the National 
Nuclear Security Strategy of the United States, ``There are few 
greater threats than a terrorist attack with WMD.'' That 
message has been reflected throughout DOD guidance documents, 
starting with the National Security Strategy and included in 
the National Defense Strategy, the National Military Strategy, 
and the National Strategy to Combat WMD.
    Further, in the report of the 2006 Quadrennial Defense 
Review, there is additional guidance. It calls on the need to 
generate the capabilities to locate, tag, and track WMD, their 
delivery systems and related materials, including the means to 
move such items; the capabilities to detect fissile materials 
such as nuclear devices at stand-off ranges--and the emphasis 
here is on stand-off ranges for DOD; interdiction capabilities 
to stop air, maritime, and ground shipments of WMD, their 
delivery systems, and related materials; and persistent 
surveillance over wide areas to locate WMD capabilities or 
hostile forces.
    The Department of Homeland Security Domestic Nuclear 
Detection Office, with personnel from several Federal 
departments, has drafted a global nuclear detection 
architecture. The Department of Defense retains the 
responsibility for implementing their parts of that 
architecture, both within their facilities in the United States 
and as part of its operations outside the United States. DOD is 
working with the other Federal departments to draft a 
Memorandum of Agreement to promote an integrated national 
research and development effort, without duplication, to 
provide better nuclear and radiological detection.
    Our DOD-specific missions require mobile and transportable 
detection systems. Stand-off is important, and even more 
important than that is high search rate. DOD has the 
responsibility to go into hostile environments, locate 
materials rapidly, and fix the situation. That requires a 
different technology in some cases; in other cases, different 
applications of technology in order to do that job properly.
    I do not mean that there is no overlap between our 
missions. Clearly, DNDO is interested in putting detectors in 
backpacks and mobile vehicles to use to protect our borders. 
However, the focus of our operations is different, and so some 
of the details of the engineering is different. The important 
thing, I think, between us is that we maintain a comprehensive 
S&T program that covers all the needs; we make sure that we 
share so that there is no duplication; and that we do the best 
we can to give our country the needed capability.
    The Department has focused on the WMD challenge for many 
years, and we have been making steady progress in expanding our 
capabilities to combat WMD and in building interagency 
partnerships. The QDR continues this momentum by providing 
specific near-term direction and longer-term guidance on 
capabilities and the required investments.
    Mr. Chairman, this concludes my remarks. I would be pleased 
to respond to any questions you might have.
    [The prepared statement of Mr. Nanos appears as a 
submission for the record.]
    Chairman Kyl. Thank you, Dr. Nanos.
    Dr. Levi?

     STATEMENT OF MICHAEL A. LEVI, FELLOW FOR SCIENCE AND 
  TECHNOLOGY, COUNCIL ON FOREIGN RELATIONS, NEW YORK, NEW YORK

    Mr. Levi. Mr. Chairman, thank you very much for inviting me 
to speak to you today about the challenge of detecting the 
smuggling of nuclear weapons and about the potential for 
transformational research in particular.
    I should say it is also an honor to sit here alongside so 
many dedicated and accomplished public servants.
    The threats from nuclear terrorism and from covert nuclear 
attack by a state are substantially different. We are speaking 
about both of them here today, but I want to separate my 
remarks on each of the two. I am going to focus on nuclear 
terrorism first.
    The first important point is that security at the source of 
nuclear materials is the most important part of the defense, 
but at the same time it is insufficient alone.
    The second important point to keep in mind is that 
preventing nuclear smuggling is different from preventing the 
acquisition and movement of radioactive materials. What we are 
fighting is terrorists with limited, though often substantial, 
capabilities that must acquire, possibly build, transport, and 
detonate a weapon, none of which, aside from perhaps the last 
step, are all that easy. And they have to do that within some 
strategic, political, or religious context that they have.
    Correspondingly, detecting nuclear smuggling involves 
detecting nuclear materials, but it also involves detecting 
nuclear terrorists, operations to build nuclear weapons, and 
the supporting fundraising, recruiting, and operational 
security efforts. On top of that, those efforts have to work 
together as a system.
    What does this mean for technology? The first thing we need 
to understand is that terrorist groups have varying 
capabilities and goals. That means that some may be more 
challenging than others. It is important to look at the worst-
case scenario. It is also important to design defenses that 
could defeat less than worst-case plots. Experience from 
defense planning has taught us that designing a defense against 
the worst case does not always provide an appropriate defense 
against other targets. For materials in particular, that means 
looking at detecting shielded highly enriched uranium, but also 
at other target materials.
    How about transformational technology? First, it is very 
important, as Steve Aoki mentioned, that there are fundamental 
physical limits to what you can do in transforming technology. 
But there is room for progress.
    I want to make a few basic points, and the theme here is 
that there is room for improvement in the hardware, but that 
transforming detection is about more than hardware.
    We can improve detection sensitivity. We can also combine 
detection of radiation with detection of other materials that 
might be involved in nuclear terrorism. Shielding is one. 
Combining detection with profiling of potential terrorists is 
another. Detecting the explosives that might be part of a 
nuclear weapon and combining that, in particular in an 
automated way, getting the right software with nuclear 
radiation detection is important.
    Another opportunity, combination of hardware and software, 
is the ability to integrate multiple detectors, wide networks 
of detectors. That requires software to combine the pieces. It 
also requires portability, lower power, and lower cost for 
detectors.
    And, finally, we need to think about transformational 
concepts of operations, in particular leveraging intelligence 
to make best use of our detectors. The biggest source of 
intelligence may be at the source. The systems we are 
installing to prevent the theft of materials may also provide 
us with warning that theft has occurred.
    Let me describe a handful of specific policy measures that 
I think these imply. The first is that transformational 
technology is worth not only the investments that are occurring 
now, but is worth greater investment. The budget for 
transformational technology at DNDO is smaller than all but one 
program budget at DARPA, the Defense Department's long-term, 
high-risk, ambitious detection program.
    On top of that, we need to make sure we are doing this in 
the widest context possible. DNDO is integrating radiation 
detection efforts. We need an approach that integrates all of 
our efforts to defend against nuclear terrorism. I would 
recommend that the place to do that is at the National 
Counterterrorism Center, the NCTC, both to lay out the 
responsibilities across departments and to make sure we have 
the right underlying intelligence assessment of what exactly 
the threat is to design and measure our efforts against.
    Thank you for your attention. I look forward to your 
questions.
    [The prepared statement of Mr. Levi appears as a submission 
for the record.]
    Chairman Kyl. Thank you, Dr. Levi.
    And now Dr. Fred Ikle.

 STATEMENT OF FRED C. IKLE, DISTINGUISHED SCHOLAR, CENTER FOR 
     STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, D.C.

    Mr. Ikle. Mr. Chairman, thank you for inviting me to 
testify here. I am the rear guard for these excellent four 
witnesses, so I am in charge of looking backward.
    A sense of history helps us prepare for the future. Eleven 
years ago, the Defense Science Board fully explained the need 
for better tools to detect smuggled nuclear weapons and 
proposed specific technologies that could and should be 
developed. 2 years later, the Defense Science Board reiterated 
these recommendations. In 1999, the National Intelligence 
Council issued a report pointing out that smuggling nuclear 
weapons is much easier than building missiles and nuclear 
warheads that fit into them. Indeed, putting a nuclear warhead 
in a large container is less difficult than putting one into a 
missile cone.
    Yet, even including the Hart-Rudman Commission, Mr. 
Chairman, that you mentioned, nothing was done until 9/11.
    But even then, after 9/11, it was a long, uphill struggle 
to overcome the bureaucratic obstacles, including some people 
who mistakenly, unlike Dr. Levi, talked about physical limits 
as an absolute limit that you could not--that prevented you 
from making any progress. And that was an obstacle for a full 
year. But thanks to Vayl Oxford's leadership, the interminable 
interagency debates about road maps were finally terminated and 
replaced by real research; real work at the laboratory benches 
is what we need.
    And as Dr. Nanos testified, the Defense Threat Reduction 
Agency is ramping up research and development on the specific, 
quite different nuclear detection systems that the combat 
commanders so badly need. Whether this urgent R&D for our 
military needs can move ahead with enough speed and conviction 
will be decided in part by Congress, especially the 
Appropriations Committees. What budget levels should be met for 
these military needs? In my rough estimate, a ramp-up to $200 
million for fiscal year 2008 would be about right as a target. 
Compare this with the $251 billion next year--just 1 year--for 
the F-35 fighter aircraft, more than a thousand times larger 
than protecting us from nuclear weapons, or the more than $10 
billion next year, more than 50 times larger, for missile 
defense. Now, I am all for missile defense and have spoken up 
on that for a long time. We need it. We need it to close half 
the barn door. But we must not leave the other half of the door 
open to smuggled nuclear weapons.
    Mr. Chairman, I shall use my remaining minutes to focus on 
the Pentagon's challenges since the homeland security needs 
have received far more attention and are better understood. 
Assume the President has just received a reliable intel warning 
that a nuclear bomb is being smuggled on one of several ships 
sailing from North Korea. He would turn to the Department of 
Defense to take lead action to find this bomb and render it 
harmless. But today neither the Defense Department, nor DOE, 
nor Homeland Security, nor the FBI have the tools to find and 
safely disarm this bomb. The Navy could sink every ship sailing 
from North Korea, without proof which ship had the weapon and 
without confirmation that any of the ships had a nuclear bomb. 
Considering our intelligence quarrels about Saddam Hussein's 
WMD, I am not sure we want to go that route?
    A Spanish philosopher once said, ``The beginning of wisdom 
is fear.'' But it is painful to explore the abyss of a 
justified deep fear. We have become so used to the non-use of 
nuclear weapons, a dispensation that lasted for more than 65 
years--one of the greatest accomplishments in all of military 
history.
    But the morning after, when this dispensation has abruptly 
come to an end, what will we do? All the concerns about 
affecting the public by active interrogation that Dr. Aoki 
properly referred to, all the budget constraints would be swept 
away. Dr. Nanos' agency would be funded with billions to 
develop and build the technology--precisely the technology 
recommended more than 10 years ago, but which we failed to 
build when we used the time to fill spiral-bound reports with 
``road maps'' and ``architectures.''
    Now, Congress has invested a great deal in improving the 
intelligence capabilities, which is fine. But a priority of 
this effort has been directed against individuals and 
organizations attempting to prepare an attack--cell phone 
chatter and financial transactions, suspicious people taking 
pictures below the Brooklyn Bridge, airplane passengers 
arriving with names on a list. This works when it takes a lot 
of people to do limited damage.
    But once the ultimate evildoers obtained a nuclear bomb and 
know how to detonate it, they do not have to chat on cell 
phones; they do not have to take pictures below a bridge, 
because the blast will destroy it from any angle; they will not 
use a passport with a name like Osama bin al Qaeda. So the 
suspect search for people will be less effective than the 
search for fissile materials. If only we had built the very 
best technology for this search.
    We have to take the enemy into account, Mr. Chairman, or as 
Winston Churchill put it: However absorbed a commander may be 
in the elaboration of his own thoughts, it is necessary 
sometimes to take the enemy into consideration.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ikle appears as a submission 
for the record.]
    Chairman Kyl. Well, thank you very much, Dr. Ikle, and all 
members of the panel. I think your last comment helps me to put 
into perspective the questions that I would like to pose.
    I have to some extent assumed, but will state specifically, 
that we all acknowledge the nature of the enemy that we are 
concerned about here today, an enemy that is so bent upon 
achieving its goals that it will literally stop at nothing, 
including overriding that 65-year nuclear dispensation that you 
spoke of, Dr. Ikle.
    I do not have any doubt, having served on the Intelligence 
Committee and being familiar with what all of you are familiar 
with, that if certain terrorist groups were able to get their 
hands on a device which they could detonate, that they would 
try to find a way to do it.
    If we all agree to that, then it would be unthinkable for 
us not to do everything we could within reason to obviate that 
threat. Intelligence is, of course, the key place to begin. Dr. 
Levi pointed out that it goes far beyond just a detection 
device proposition. You would look at all the different ways in 
which it could be done and try to determine whether you can 
find out things about the people or the transportation 
methodologies or the other ways that you might have to detect 
the threat when it came. But at the end of the day, I think Dr. 
Ikle is correct. A lot of questions would be asked after the 
fact why you did not have a better way of finding out that this 
was going to happen or potentially detecting it.
    Now, I acknowledge the different responsibilities, and one 
of the benefits of having a panel such as we have today is that 
we have a glimpse of each of the entities that have the primary 
responsibility for our Government's response to this as well as 
to area outside experts, both with experience.
    Do I understand--and I primarily ask the three of you this 
question, but anybody can chime in. Do I understand that in a 
very rough way, the research part of the effort is for the most 
part led by the Department of Energy; the applied technology 
deployment into the field to do the very best detection that we 
can with what we have available now is done through the 
Department of Homeland Security; and the application of what we 
need for the purely or primarily military applications would be 
accomplished through the Department of Defense; but that there 
is a lot of overlap? And, in fact, part of my question here is: 
Is the DNDO R&D group where the priorities are set, or is there 
some other level that goes across our governmental agencies 
that actually set the priorities for both the research and 
deployment of whatever technologies we have?
    Now, those are actually two questions, so any of you, since 
nobody else is here, we do not have a time limit. Let's just 
have a conversation about this. Let me start with Dr. Oxford.
    Mr. Oxford. Mr. Chairman, if I could address that, and then 
ask Steve and Pete to jump in as necessary.
    First of all, the overarching technology road map that 
helps construct the executive branch's response to this was 
actually done through the OSTP office within the White House, 
and we all contributed to the respective contributions to that.
    I think regarding your former question, both Steve and I 
own what I call transformational research; I think he calls it 
foundational research; but we do de-conflict those. For 
example, when he goes out and solicits proposals from the 
National Laboratories, I contribute members of his team to do 
the selection and do the proposal review so we understand where 
each of us are investing and how that will either transition to 
later stages of development or how we can de-conflict that 
directly.
    But our transformational research program is tied directly 
to our architecture, where he has broader objectives that allow 
him to address. We do take our transformational research 
program against our architecture as a backdrop for longer-term 
solutions that ultimately will lead to the system solutions 
that you referred to.
    Chairman Kyl. Dr. Aoki?
    Mr. Aoki. Mr. Chairman, just to add a little bit to Vayl's 
comments, I think one way to think about this is that there 
really is sort of a core science base, and DOE does and has 
over the years contributed to maintaining that science base. 
But because the solution to this problem, as several of the 
witnesses have pointed out, requires not only the kind of 
integrated system that DNDO is developing for detection in this 
country and at our borders, but also the best use of our 
intelligence resources, and ultimately perhaps our military 
resources, one of the things that we do is provide a lot of 
support for some of the other agencies. And so we work very--
you know, our R&D programs work very closely with the 
intelligence community. We work very closely with DOD. We 
actually do provide a lot of applied R&D that is directed at 
their missions as well as at some of our own specialty areas, 
like the Render Safe Teams and Emergency Response Teams.
    So there may appear to be a certain amount of overlap. Some 
of that is inevitable because what you have here is a number of 
product lines, if you will, being built on top of a common 
substructure. We do work very hard at trying to coordinate, 
trying to get the priorities right, and trying to make sure 
that we are not keeping each other in the dark about what is 
going on. Some of that is informal; some of that is formalized.
    Chairman Kyl. And I should not have shorted DTRA's research 
role as well. Perhaps in the way I asked the question I did. I 
am sure Dr. Nanos will correct that.
    Mr. Nanos. Well, sir, I would like to say that the National 
Labs are a treasure in this regard. I mean, in terms of the 
development of a lot of the detection technology, and even when 
we are engaged with the universities or industry development 
sources, they provide the people that help us sort it out and 
put sanity in the equation and understand what we have.
    The DOD part of the equation, I think, I like to describe 
is a little bit different, and we may push on some technologies 
that would not--which might be being worked by others but would 
not necessarily be their first priority. If you think of Dr. 
Ikle's scenario and back it up to prior to when the material 
gets shipboard and you--first of all, you need to study the 
terrain, the background, and understand where the material--
what pathways it might take because time is clearly of the 
essence and you need to get out there and find the material now 
before it gets too close, or even worse, if it were diverted 
and went after an important overseas target.
    And so for that reason, we have to apply a long stand-off, 
potentially high-energy active sources to ferret out the 
material, and some of that in the hazardous environment we 
would operate in and with the rules of engagement might not be 
suitable for use in the other agencies' scenarios, but would be 
perfectly acceptable in the combat conditions or near-combat 
conditions we would find ourselves in.
    So we will be pushing predominantly in that direction and 
developing and hopefully sharing that technology, obviously, 
but we may be pushing it harder in that direction than others 
would do. But, of course, at the same time, we will be relying 
on the DOE laboratories to provide us the scientists to help us 
do that.
    Mr. Levi. Let me just make a couple comments. Two witnesses 
have pointed out that active interrogation technology, which, 
in particular, lets you deal with some shielding challenges, is 
acceptable in different ways in different situations. The 
hazards to people, to operators, and to enemy combatants are 
all judged in different ways. There is an in-between scenario 
also. If we have strong intelligence, not even after a single 
attack but strong intelligence that material has escaped, we 
might be willing to cross over other lines. But that requires a 
conversation now about what the rules are and what rules we 
would use in the future that can guide the technology 
development. It is not technology in a vacuum. It is technology 
within a context that we need to look at.
    We are not going to develop the technology during the time 
frame between warning and possible attack. We have to look at 
it now.
    We also talked a bit about a scenario where a state lets 
material go, where a state deliberately tries to attack 
covertly. And I think Steve Aoki's point earlier about the 
necessity of investing in attribution so that states cannot do 
this anonymously is incredibly important. And it is also 
important to understand that this is not primarily a technology 
effort to characterize the materials after an attack or before 
an attack. That is part of it. But the biggest shortfall right 
now is having fingerprints to match whatever we find to.
    There are important things that have been done. There is 
more important analysis and more in the way of intelligence 
operations that could be done. And there also needs to be 
better integration across the U.S. Government.
    I do not hold a clearance, but I have been told that there 
is poor sharing in some important cases between critical parts 
of the U.S. Government in what they know about foreign nuclear 
materials holdings. And I think that would be very important to 
investigate and to address if that problem genuinely does 
exist.
    Chairman Kyl. Dr. Ikle?
    Mr. Ikle. The useful distinction that we can see 
percolating through these good responses is really peacetime 
prevention, which DNDO is rightly focused on, enormously 
important, and wartime response with DTRA, for which DTRA has 
to equip the Department of Defense. And different rules apply. 
Different rules can be used. It is really almost an entirely 
different world if you think of the full consequences that we 
get into in a world after a nuclear weapon has been used.
    Having said that, I am little bit troubled occasionally by 
the use of the word ``architecture.'' It sounds kind of good, 
purposeful building of a big program, a big structure. But 
architects normally know their building materials. They know 
what the beams can carry. They know what the roofing can do. 
And so even for the most ambitious structures, they know what 
they work with.
    In this area, it is the very materials, the tools, the 
detection equipment that is in flux, that should be greatly 
improved. And as we improve it, the architecture will change. 
So this has to be an iterative process. Otherwise, it is like 
you were trying to build an air force architecture with the 
bases, the hangars, the logistics department, training of the 
pilots, but you do not want the airplanes are like. And that is 
a bit the situation we are in here.
    So we have to think more of an iterative process where we 
get better tools and we can do different things with the 
structure, the deployment, or call it the architecture, based 
on these different tools.
    Finally, a very brief word on attribution, which was 
properly raised by Dr. Levi. That is a deep problem, and as was 
indicated, it gets into classified areas. I do not know whether 
your Committee wants to have a closed hearing on that sometime, 
but it is a big problem area. That is all I can say now.
    Chairman Kyl. Well, and it would be wonderful if we could 
say someday soon in an unclassified way that our scientists 
have now figured out a way, going back to the genomic kind of 
projects in biology, to figure out the source of every nuclear 
emission should there be some kind of material released from an 
explosion. And so whoever you are thinking about doing it, just 
like the FBI and the fingerprints, we will find you because we 
know what each of you have.
    It would be nice to be able to use that as a deterrent, so 
if you have that capability, it is one that you probably want 
to announce in advance.
    Mr. Ikle. Mr. Chairman, I think it is around the corner, 
and we hope will have it before the first attack.
    Mr. Levi. You can also go partway to disclosing your 
capabilities in order to achieve a meaningful deterrent. There 
is an analogy here. When states like India and Pakistan 
developed nuclear weapons, they did not release all the details 
of what they were doing, but they published limited amounts in 
technical journals to show that they had certain capabilities.
    I have encouraged DOE scientists to try to look at doing 
something similar--publishing enough to get the other guy 
worried, but not enough so that he can evade your defense.
    Chairman Kyl. And, of course, I think it is obvious that 
there is much about this entire area that is classified and 
obviously has to remain classified.
    One of the undercurrents to the testimony here is the 
relative priority of spending on near-term detection devices 
and programs that enable us to meet a potential current threat, 
on the one hand, versus the kind of research that has got to be 
done for more robust activity. To some extent, that also breaks 
down between the non-military and military, although to some 
extent, while you might consider the military the more active 
or robust threat, it does not necessarily have to be.
    And so I am wondering how each of you would evaluate--and, 
in particular, I will put this to Dr. Oxford, too--how we 
evaluate our spending priorities with the kind of spending 
reductions that I talked about in my opening statement and what 
kind of impact that has and what we can do about that.
    Now, I know you did not come here to complain, so I am 
eliciting this information from you under penalty of something.
    Mr. Oxford. Mr. Chairman, I understand the budget pressures 
that we are all under, and I will try to not make this sound 
like a complaint.
    First of all, getting to the basis for your question, we 
think right now, given the sparsity of what this country has 
been investing in this area, we have got to have a balance 
between near-term and future capabilities. For example, the 
contracts that I mentioned that were awarded on the 14th of 
this month will be our next-generation technologies for 
probably 10 years. The upgrades to those systems in the passive 
detection arena are going to come primarily in two areas: 
upgraded software, which can be immediately downloaded in the 
fielded systems so the hardware investment is not wasted, 
because we have actually already set up a national algorithm 
team that consists of national experts from the laboratories as 
well as industry to constantly improve the algorithms in which 
these detectors will give us the answers. So I think that 
becomes a very cost-effective solution.
    Separately from that, both DOE and ourselves, and I am sure 
Dr. Nanos ultimately--I am not sure what his program looks like 
right this minute--will be investing in advanced detector 
materials. Now, based on our design philosophy, at least for 
the domestic systems, we are building these in a way that we 
can retrofit. So if we come up with a replacement to sodium 
iodide--for example, lanthanum bromide is one of the detector 
materials that is being looked at pretty hard--we would have a 
design methodology where we could retrofit our systems, just 
like we will the software, to upgrade those systems as new 
materials become available.
    So that kind of balance allows us to do things now without 
waiting for the future necessarily, so we get what we call 
capability and coverage, expecting then improvements to come 
over time.
    Now, there are long-term challenges that we just do not 
have capabilities for right now, and that is why we still need 
that balance in the longer-term R&D. As Dr. Nanos has 
mentioned, and in my opening statement I mentioned, stand-off 
distances for detection is problematic, and we need to 
aggressively look at what we can do in that arena.
    Regarding the reductions that are currently in the Senate 
mark, there was $35 million of a $100 million reduction in our 
transformational research program that will affect many of the 
programs that we expected to start next year. Specifically, the 
academic research program, which we think is the future for 
this country in this area, was essentially zeroed out. That 
will hurt our ability to get the universities and colleges 
engaged in this topic to bring the best and the brightest to 
the forefront, you know, in the 5- to 10-year horizon.
    So we think in the transformational side that we need to 
work with the Senate in the conference process to see if we can 
restore that.
    Likewise, some of the other reductions will affect our 
ability to start working with our major urban areas to help 
them provide detection systems to protect them against a weapon 
that could be developed inside this country. So just looking 
outwards from the border may not be an effective solution, 
especially for a dirty bomb, where the materials could come 
from a domestic source and essentially be transported directly 
into one of our major urban areas.
    So there are a variety of things like that. The shielding 
problem that we have talked about, that program was cut in half 
in the 2007 mark. That will be our next-generation capability 
to actually automatically identify shielding in cargo. So we 
think those become critical vulnerabilities as we go forward 
over time.
    Chairman Kyl. Okay. Thank you.
    Others? Dr. Nanos?
    Mr. Nanos. I would like to emphasize something that
    Mr. Oxford said, the system aspects of what we are talking 
about. You know, a detector, an individual detector, is a 
component of an overall system, and if you think of the radar 
now to the transmitter-receiver processing software and that 
sort of thing, each mission has sort of a system aspect to it 
that we have to develop. And as new technologies come along, 
you do not throw away the system. You introduce it to the 
system. And I think that is an important point.
    And I think that part of this effort and a very important 
part of it is to work the system aspects of this and then to 
optimize the components for these systems.
    The detection business 10 years ago was largely one that 
was based on protection of people and some detection of events, 
but not trying to prevent smuggling or not trying to locate 
material the way we are today in the field. So some of the--
although we did a lot of work on detectors, we did not do it in 
the system context. And I think that is probably--Vayl, I don't 
know if you agree with that, but I think that is probably one 
of the biggest sea changes that we are undergoing right now.
    Mr. Oxford. Mr. Chairman, if I could add to something, Dr. 
Ikle mentioned something, that there has been probably a 50/50 
split in the technical community as to whether we are at our 
physical limits on understanding this problem or being able to 
do something about it. Let me just give you one analogy that 
suggests that we are not.
    I would contend that the detector community has never met 
the signal processing community, so what Pete is saying I think 
is absolutely true. There are things we can do in the signal 
processing area, just like we did in the ASW business for 
years, that will allow us to start to take some of these 
signatures that are buried in a cluttered environment and 
extract them.
    The detector community did not necessarily worry about 
that. They worried about the physical detector and not 
necessarily the system solution, as Pete is saying. So when you 
get a group of just physicists in the room who do not think 
about signal processing, you would get that same kind of 
argument. We think there is a different approach.
    Chairman Kyl. Well, go ahead, and I will add one more 
question for Dr. Ikle.
    Mr. Ikle. It is a very important question you raise, Mr. 
Chairman, the question you raised about near-term and more 
advanced or longer-term tools and investments. I would think, 
if you look at the other large budget allocations, particularly 
in the Pentagon, quite a bit of it is certainly for the long 
term. The more than 1,000 times larger budget--and we are 
talking about for DTRA, the F-35 is really more for the long 
term. The very important ballistic missile defense project is 
also rather long term. It has made some progress, but it has 
still quite some way to go.
    So it makes sense to compliment these long-term efforts, 
which I think are mostly necessary for our military capability 
10, 20 years hence, in this area as well.
    A very encouraging idea that Dr. Oxford mentioned is the 
retrofitting of currently deployed things with improved 
equipment. And to the extent that that can be provided in 
advance, it would help a great deal. So it remains a difficult 
balance, long-term life versus short term.
    There is another balance we have not touched on, and that 
is the enormity or the damage of the event that we want to 
prevent. There is a lot of talk about dirty bombs. They are 
nasty. Scattering of medical isotopes could do similar things. 
One of the best decisions, I thought, of Homeland Security 
Secretary Chertoff was to raise the radiation level tolerable 
after a dirty bomb to the level that you encounter every time 
you fly to Arizona. It was a ridiculously low level. Of course, 
you have to evacuate a city for a century or whatever. So there 
are flexible ways of handling the dirty bomb that is, as we all 
realize, much, much less dreadful than a full-scale nuclear 
explosion.
    There is the risk of chemical plants, often mentioned in 
Congress, being attacked by terrorists, and some of these could 
be terribly nasty because there is a dirty bomb probably in 
there, the damage they do. So these less bad or lesser dangers 
probably do deserve less attention.
    Chairman Kyl. Dr. Levi?
    Mr. Levi. First, let me say I think Dr. Ikle's comments on 
radiological weapons, dirty bombs, are right on the point. In 
particular, adjustments to the radiation threshold levels were 
very smart to do.
    Let me try to give you yet another perspective on the near-
term versus long-term thinking. Our near-term investments are 
defending us against some subset of the threat. They are not 
going to defend us against the--they are not going to give us 
high confidence against the worst-case threats, but they are 
going to give us meaningful defense against some of the lesser 
threats. Let me give you an example of a situation I would not 
like to see happen.
    We look at all the radiation detection technologies, decide 
that they can't detect well-shielded highly enriched uranium 
that has been properly cast and so on. So we say we are not 
going to deploy the lesser systems.
    Then a group comes along, a terrorist group that is really 
good a stealing things, but not good at technical measures, not 
good at recruiting scientists. They break into a weapons 
facility, get the material. They cannot do much to hide it, 
let's say. They try to bring it into the country, and we do not 
have the detection systems capable of detecting it because we 
have only looked at the worst-case threat. I think that is a 
situation we want to avoid.
    What we want to be doing--and I think this is one way to 
think of the near and long term--is to use a capabilities-based 
approach. This is the way that the Defense Department has been 
doing planning for the last 5 years or so, where we look at a 
range of capabilities, both of the potential opponents and of 
the defense, and try to simply cover as much of that space as 
possible, to have good capabilities against whatever we can 
defend against, and then in an evolutionary way try to improve 
that.
    It is the way the Defense Department has been heading. They 
have been developing better ways to actually do carefully 
planning under that. And it is probably the right framework for 
thinking about this as well.
    Chairman Kyl. Well, a good example of that is in the area 
of missile defense. There is controversy about it, but it makes 
sense given the fact that there is some potential threat today. 
In the case of terrorism, it makes even more sense, it seems to 
me, because there is a very real threat of terrorism today. But 
concomitant to that is what is the relative prioritization in 
spending research dollars if there is a potential--again, the 
predicate here is that this is the worst calamity that we can 
imagine and, therefore, we probably ought to be setting aside 
some concomitant amount of research dollars to deal with it.
    Is there a need for a Manhattan-style effort here that 
would eventually enable us to have a pretty good chance to 
protect against this ultimate threat to our citizenry? Dr. 
Ikle?
    Mr. Ikle. Some of us, especially you, Mr. Chairman, have 
argued for kind of a Manhattan Project and made that case at 
high levels of the executive branch, and at the time, the 
executive branch was close to that but then went off in a 
different direction.
    The advantage of the Manhattan Project, as I would see it, 
is not just the perhaps somewhat larger budget, but that the 
scientists interact more vigorously than if we have to parcel 
out contracts to different universities and the four or five 
laboratories and agencies and so on, and it becomes more 
parceled. And I do hope that DNDO under Vayl Oxford's 
leadership will be able to pull these many excellent contracts 
that they are letting out intellectually together and have a 
system that the overall reinforcement and interaction of these 
ideas of different physicists, be they at universities, at the 
labs, or wherever, that can mutually reinforce each other, as 
was the case at the Manhattan Project the way it was led.
    Chairman Kyl. Mr. Oxford?
    Mr. Oxford. let me address that a little bit. I take a 
similar view, but maybe a different pathway. For example, when 
I inherited DNDO, before it actually was formalized, the total 
budget within DHS to deal with both the acquisition and the R&D 
account was about $173 million. We are operating this year with 
a total budget of $318 million. The President's budget request 
in 2007 is $535 million. We are on the right trajectory.
    I think there are cases where you could throw too much 
money too quickly until the community is ready to accept it; 
otherwise, we would be sitting here in front of you next year 
wondering why we had wasted a billion dollars when the 
community was not ready to effectively spend it.
    So I think we are looking--whether it is a Manhattan 
Project or just a very prudent planning and execution strategy 
to deal with threat, I think we are on that right trajectory. 
And I think if you look at our 5-year projections, we will be 
over a billion dollars within the next several years if we get 
the support not only through the White House but the Congress 
as we go forward.
    So the trajectory is right. We are getting the priorities 
established. We could have thrown too much money too soon had 
we not gone through some of this planning phase.
    Chairman Kyl. Yes, Dr. Aoki?
    Mr. Aoki. I guess I would just want to add one comment to 
that, that is, this is not only a science and technology issue, 
but also--you know, we used the word ``architecture'' 
occasionally in the testimony, but what architecture is really 
all about is the flow of information. And what we are trying to 
do in designing the system that Vayl is responsible for is to 
make sure that not only do we have better detectors in the 
sense of better physics packages that go out and sense 
radiation at border crossings or in the hands of policemen or 
wherever, but also a better ability to synthesize and utilize 
that information and make sure that if somebody picks up 
something that is a warning sign, that information gets to 
someone who can appreciate it and analyze it and draw the 
proper conclusion.
    So I think one of the things that we need to focus on here 
is not only making sure that the science is properly funded, 
but also that within--that science is placed in the right 
operational context, which includes a great deal of time and 
attention placed to the management of the information, the 
connectivity between the different parts of the system, so that 
the very precious nuclear weapons expertise, for example, at 
Los Alamos National Laboratory can be brought to bear on the 
kinds of things that we--the signals we are getting out in the 
field and conclusions, proper conclusions drawn and sent back 
to the operators.
    So some of this is not only about putting more money into 
R&D, it is also about, as I think several people have commented 
already, the systems aspects.
    Chairman Kyl. Dr. Levi?
    Mr. Levi. Let me expand on a couple of things that Dr. Ikle 
and Dr. Aoki have said. The labs have a very particular 
advantage in dealing with these things. In many cases, we are 
going to be trying to detect not just nuclear material but 
nuclear weapons. As far as I know, universities do not know 
details about what nuclear weapons--what forms nuclear weapons 
might take. Industry does not know that. The labs do. So they 
can take advantage of that knowledge.
    Context--I think several people have emphasized it. 
Information flow. I think DNDO is to be complimented from one 
particular initiative, which is to make sure that facilities 
that we are helping acquire protection and accounting systems 
actually report to the United States when those systems detect 
something missing. That has not been a focus in the past, and 
DNDO should get as broad support as possible.
    But let me also give you one more example of how thinking 
of this as a system matters. I doubt that technological 
advances will give us the ability to have ubiquitous radiation 
sensing along, for example, the border. Okay? But here is what 
it can do: If we have an ability to actually stop a significant 
number of people crossing the border, then the technological 
advance can help make detectors smaller and more portable so 
that if we have something like the catch-and-release policy we 
have now, at least we do not catch someone with plutonium and 
release them.
    Those sorts of integrated concepts of operations are 
incredibly important, and if we have that context, these 
technological investments will be much more valuable.
    Chairman Kyl. Dr. Nanos?
    Mr. Nanos. Sir, as a student of both the Manhattan Project 
and the Polaris, from my strategic system experiences, there is 
a part of it that is often not discussed, and that is the 
tremendous industrial base ground that was prepared during that 
time and the ability to do things concurrently. And I think it 
is probably too early now, but, you know, this story may 
ultimately be written in our ability to cost-effectively 
produce exotic materials that we have never produced before. In 
other words, as we look to some of the detector technologies 
creating high-purity crystals and things like that, and then 
being able to churn out many thousands of them at reasonable 
expense may end up being the biggest challenge we have in terms 
of our defense.
    So as the S&T opens up the doors, we have to be aware of 
where the major industrial base challenges are and move on 
those very quickly because it does not do us any good to do the 
S&T and then not have the production capability or not be able 
to afford the result.
    Mr. Oxford. Mr. Chairman, could I add an exclamation point 
to that?
    Chairman Kyl. Sure. Before you do, let me just--first of 
all, I have a 3:30 meeting. Secondly, I promised some people we 
would finish within an hour or so, and we are a bit beyond 
that. And I do not want to impinge upon your time either. So 
what I would like to do is just conclude with Mr. Oxford and 
then, Dr. Ikle, if you had something, to conclude our hearing 
with that, but to make the point that--I mean, I could sit here 
all day and listen to you. The one thing that I do want to get 
out of this in terms of a written question to all of you--and I 
would like to submit a couple here--is any suggestions you have 
about this issue that has been now addressed directly and 
indirectly about the coordination of effort and the 
prioritization and the ultimate authority and responsibility 
for doing that so that we don't just end up with a Government 
that has a lot of capability and an industry with a lot of 
capability, laboratories, others with a lot of capability, some 
organizational structure in the Government to deal with it, but 
not having a very clear chain of authority that utilizes all of 
this in a sensible and ultimately responsible way.
    Mr. Oxford. If I could show you how this is working right 
now, for example, when we signed the Spectroscopic Portal 
program contracts, we have an agreement with NNSA that they 
will begin procurement from those contracts. So the systems 
they field overseas, where they can field these systems based 
on the host nation agreement, they will have the wherewithal to 
now buy from these contracts, therefore, hopefully reducing the 
unit costs for those contracts.
    As Pete mentioned, one of the long poles in this tent is 
the fact that there is one sodium iodide manufacturing facility 
in this country. It is a French-owned company operating out of 
Ohio. So in this case, what we have done is we have gone out 
with a separate solicitation from the detector program to 
solicit bids from not only that company but also other 
companies within the U.S. to see if we can enhance the domestic 
production of sodium iodide crystals and to reduce the overall 
costs. Right now as a singular source, they are drawing about a 
25-percent profit on the crystals. Those are the kinds of 
issues that Pete just raised that, as we start getting into the 
systems and the industrial capacity, we have to look forward 
because that becomes a long pole in terms of the production 
capacity.
    Chairman Kyl. Dr. Ikle?
    Mr. Ikle. Mr. Chairman, I think this hearing by itself 
helped integrating the thinking among the involved agencies and 
scholars. And I think more can be achieved just by your 
Committee pulling this--make sure this effort pulls together 
from the industrial side on the one hand, the scientific side 
on the other, what the laboratories can do, as Dr. Levi had 
pointed out, because, you know, weapons is quite different from 
what the university can do, and how do you fit these together 
so that the country as a whole will rapidly and greatly improve 
its capability in this important area.
    Chairman Kyl. Let me conclude by echoing something that Dr. 
Levi said, although he was too self-effacing here. I am humbled 
to be in the presence of people whose reputations I know and 
whose contributions to this country's security and prosperity 
are not, I am sure, nearly appreciated, not just in the room 
but elsewhere. We have got some tremendous talent in this 
country and people who have sacrificed, who have served the 
country in ways that did not perhaps provide as much 
remuneration as they could have acquired otherwise, but 
certainly their contributions to our society in the long run 
will make a much greater difference.
    I just appreciate that and hope that the contribution that 
we in the policymaking area can make will match the kind of 
scientific effort that all of you have been responsible for.
    To that end, I invite your comments, your suggestions. This 
is not just an end of a process here but I hope the beginning 
of a process. Dr. Ikle, as you pointed out, perhaps we can play 
a role in this with this Subcommittee, but not even just this 
Subcommittee, the Congress generally.
    I will follow up with the questions that Senator Feinstein 
had for the panel, as well as a couple that I would like to 
ask, and really elicit any other advice or suggestions that you 
have, and then perhaps we can get together again.
    I will just conclude by saying thank you to all of you, and 
thank you to those in the audience who I am sure share this 
appreciation for our panel here today.
    This hearing will now be concluded.
    [Whereupon, at 3:35 p.m., the Subcommittee was adjourned.]
    Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T2200.001

[GRAPHIC] [TIFF OMITTED] T2200.002

[GRAPHIC] [TIFF OMITTED] T2200.003

[GRAPHIC] [TIFF OMITTED] T2200.004

[GRAPHIC] [TIFF OMITTED] T2200.005

[GRAPHIC] [TIFF OMITTED] T2200.006

[GRAPHIC] [TIFF OMITTED] T2200.007

[GRAPHIC] [TIFF OMITTED] T2200.008

[GRAPHIC] [TIFF OMITTED] T2200.009

[GRAPHIC] [TIFF OMITTED] T2200.010

[GRAPHIC] [TIFF OMITTED] T2200.011

[GRAPHIC] [TIFF OMITTED] T2200.012

[GRAPHIC] [TIFF OMITTED] T2200.013

[GRAPHIC] [TIFF OMITTED] T2200.014

[GRAPHIC] [TIFF OMITTED] T2200.015

[GRAPHIC] [TIFF OMITTED] T2200.016

[GRAPHIC] [TIFF OMITTED] T2200.017

[GRAPHIC] [TIFF OMITTED] T2200.018

[GRAPHIC] [TIFF OMITTED] T2200.019

[GRAPHIC] [TIFF OMITTED] T2200.020

[GRAPHIC] [TIFF OMITTED] T2200.021

[GRAPHIC] [TIFF OMITTED] T2200.022

[GRAPHIC] [TIFF OMITTED] T2200.023

[GRAPHIC] [TIFF OMITTED] T2200.024

[GRAPHIC] [TIFF OMITTED] T2200.025

[GRAPHIC] [TIFF OMITTED] T2200.026

[GRAPHIC] [TIFF OMITTED] T2200.027

[GRAPHIC] [TIFF OMITTED] T2200.028

[GRAPHIC] [TIFF OMITTED] T2200.029

[GRAPHIC] [TIFF OMITTED] T2200.030

[GRAPHIC] [TIFF OMITTED] T2200.031

[GRAPHIC] [TIFF OMITTED] T2200.032

[GRAPHIC] [TIFF OMITTED] T2200.033

[GRAPHIC] [TIFF OMITTED] T2200.034

[GRAPHIC] [TIFF OMITTED] T2200.035

[GRAPHIC] [TIFF OMITTED] T2200.036

[GRAPHIC] [TIFF OMITTED] T2200.037

[GRAPHIC] [TIFF OMITTED] T2200.038

[GRAPHIC] [TIFF OMITTED] T2200.039

[GRAPHIC] [TIFF OMITTED] T2200.040

[GRAPHIC] [TIFF OMITTED] T2200.041

[GRAPHIC] [TIFF OMITTED] T2200.042

[GRAPHIC] [TIFF OMITTED] T2200.043

[GRAPHIC] [TIFF OMITTED] T2200.044

[GRAPHIC] [TIFF OMITTED] T2200.045

[GRAPHIC] [TIFF OMITTED] T2200.046

[GRAPHIC] [TIFF OMITTED] T2200.051

[GRAPHIC] [TIFF OMITTED] T2200.052

[GRAPHIC] [TIFF OMITTED] T2200.053

[GRAPHIC] [TIFF OMITTED] T2200.054

[GRAPHIC] [TIFF OMITTED] T2200.055

[GRAPHIC] [TIFF OMITTED] T2200.056

[GRAPHIC] [TIFF OMITTED] T2200.057

[GRAPHIC] [TIFF OMITTED] T2200.058

[GRAPHIC] [TIFF OMITTED] T2200.059

[GRAPHIC] [TIFF OMITTED] T2200.060

[GRAPHIC] [TIFF OMITTED] T2200.061

[GRAPHIC] [TIFF OMITTED] T2200.062

[GRAPHIC] [TIFF OMITTED] T2200.063

[GRAPHIC] [TIFF OMITTED] T2200.064

[GRAPHIC] [TIFF OMITTED] T2200.065

[GRAPHIC] [TIFF OMITTED] T2200.066

[GRAPHIC] [TIFF OMITTED] T2200.067

[GRAPHIC] [TIFF OMITTED] T2200.068

[GRAPHIC] [TIFF OMITTED] T2200.069

[GRAPHIC] [TIFF OMITTED] T2200.070

[GRAPHIC] [TIFF OMITTED] T2200.071

[GRAPHIC] [TIFF OMITTED] T2200.072

                                 <all>

</pre></body></html>
